<html>
<title> - MARKUP OF H.R. 2722, THE SAFE ACT FRIDAY, JUNE 21, 2019</title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]


                   MARKUP OF H.R. 2722, THE SAFE ACT

=======================================================================

                                 MARKUP

                               BEFORE THE

                   COMMITTEE ON HOUSE ADMINISTRATION
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             JUNE 21, 2019

                               __________

      Printed for the use of the Committee on House Administration

[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]

                       Available on the Internet:
         https://www.govinfo.gov/committee/house-administration
         
                                __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
38-606                   WASHINGTON : 2020                     
          
--------------------------------------------------------------------------------------         

                 Committee on House Administration
                             116th Congress

                  ZOE LOFGREN, California, Chairperson
JAMIE RASKIN, Maryland               RODNEY DAVIS, Illinois,
SUSAN A. DAVIS, California             Ranking Member
G. K. BUTTERFIELD, North Carolina    MARK WALKER, North Carolina
MARCIA L. FUDGE, Ohio                BARRY LOUDERMILK, Georgia
PETE AGUILAR, California

 
                   MARKUP OF H.R. 2722, THE SAFE ACT
                   
                              ----------          FRIDAY, JUNE 21, 2019


                         FRIDAY, JUNE 21, 2019

                          House of Representatives,
                         Committee on House Administration,
                                                    Washington, DC.
    The Committee met, pursuant to call, at 9:00 a.m., in Room 
1310, Longworth House Office Building, Hon. Zoe Lofgren 
[Chairperson of the Committee] presiding.
    Present: Representatives Lofgren, Raskin, Davis of 
California, Butterfield, Fudge, Aguilar, Davis of Illinois, 
Walker, and Loudermilk.
    Staff Present: Sean Jones, Legislative Clerk; Eddie 
Flaherty, Chief Clerk; David Tucker, Parliamentarian; Jamie 
Fleet, Staff Director; Lisa Sherman, Chief of Staff for Mrs. 
Davis of California; Lauren Doney, Communications Director and 
Deputy Chief of Staff for Mr. Raskin; Eyang Garrison, Deputy 
Chief of Staff and Legislative Director for Ms. Fudge; Kyle 
Parker, Senior Policy Advisor for Mr. Butterfield; Brandon 
Mendoza, Senior Legislative Aide for Mrs. Davis of California; 
Evan Dorner, Legislative Assistant for Mr. Aguilar; Stephen 
Spaulding, Counsel, Elections; Timothy Monahan, Minority 
Director, Oversight; Jennifer Daulby, Minority Staff Director; 
Courtney Parella, Minority Communications Director; Cole 
Felder, Minority General Counsel; Susannah Johnston, 
Legislative Assistant for Mr. Loudermilk; and Nicholas Crocker, 
Minority Professional Staff.
    The Chairperson. A quorum being present, the Committee will 
come to order.
    Without objection, the Chair is authorized to declare a 
recess at any time.
    Pursuant to Committee Rule 4 and clause 2(h)(4) of House 
Rule XI, the Chair announces that she may postpone further 
proceedings today when a recorded vote is ordered on the 
question of approving a measure or matter or on adopting an 
amendment.
    This morning, we will consider H.R. 2722, The Securing 
America's Federal Elections Act, a targeted bill to modernize 
our Nation's election infrastructure and respond to the ongoing 
attacks on our democracy.
    As we all should know and now appreciate, our country 
suffered, as Special Counsel Mueller said, ``multiple 
systematic efforts to interfere in our election in the 2016 
Presidential election.'' When outsiders meddle in our 
elections, it is an attack on our country. We cannot leave 
States on their own to defend against the sophisticated cyber 
attacks of state actors.
    While we have made modest progress to bolster our defenses, 
it is clear from the analysis of our intelligence community and 
a host of independent experts from across the political 
spectrum that more must be done.
    Our State and local governments need the resources, know-
how, and support to harden our election infrastructure before 
Americans head to the polls. In a little over 200 days, New 
Hampshire will hold the first primary election of the 2020 
election cycle. We must act now.
    This, we know, is not a partisan perspective. Quote, ``The 
warning lights are blinking red.'' To be very clear, that is 
not my assessment but the administration's Director of National 
Intelligence, Dan Coats, speaking about foreign attacks on our 
elections a little under a year ago.
    Quote, ``We recognize that our adversaries are going to 
keep adapting and upping their game.'' Yet again, that is not 
my analysis but, instead, the administration's own FBI 
Director, Christopher Wray, who recently said that our 
adversaries treated the 2018 midterms as, quote, ``a dress 
rehearsal for the big show'' of the 2020 Presidential 
elections.
    Today, we will act. This critical package of legislative 
reforms will begin to respond with the urgency these stark 
warnings deserve.
    The SAFE Act will require voting systems to use individual, 
durable, voter-verified paper ballots, a widely agreed-upon 
reform to protect our elections from manipulation; expand risk-
limiting audits, equipping our States with the systems needed 
to ensure the accuracy of the vote tallies in an efficient 
manner; authorize a $600 million Election Assistance Commission 
grant program to assist in securing election infrastructure, 
while providing States with $175 million in biannual 
sustainment funding to help maintain election infrastructure. 
This initial $600 million is being appropriated by the 
financial services and general government accounting 
appropriations bill.
    It will foster accountability for election technology 
vendors, creating a qualified election infrastructure vendor 
designation and much-needed cybersecurity deadlines; and 
implement cybersecurity safeguards to protect our systems from 
attack, including prohibition on wireless communication devices 
and a prohibition on election system internet 
interconnectivity.
    Ultimately, the SAFE Act will improve the resilience of 
American elections, a goal that I know we all share. Today is 
an opportunity to work together as a Congress to counter 
attacks on elections.
    I now recognize Ranking Member Davis for any opening 
statement he may have.
    [The statement of the Chairperson follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Davis of Illinois. Thank you, Madam Chairperson.
    Thank you all for being here today.
    Our election infrastructure is aging and at risk. Congress 
should work together in a bipartisan way to put a solution on 
the table to address this problem.
    Election security should not be a partisan issue, and I am, 
frankly, disappointed that our majority chose not to work with 
our Republican colleagues, all three of us on this Committee, 
for that bipartisan solution to strengthen our Nation's 
election security and, instead, they have decided to put forth 
legislation that stands no chance of being signed into law. It 
is disappointing for the American people, who deserve a bill 
that allows them to trust in their election system and have 
their votes preserved and protected.
    During the debate in this Committee on H.R. 1, the Majority 
insisted that the bill contained serious election security 
components. If that is the case, why are we here? H.R. 1 fell 
flat in the media and with public opinion. Now we are here 
discussing H.R. 2722, another bill aimed at federally mandating 
elections. This is simply more of the same.
    What we aren't going to hear about today is the work done 
last Congress to provide funding for election infrastructure 
and to create unprecedented cooperation among the States and 
Federal stakeholders--hence, the result that not a single 
instance has been reported of interference in the 2018 midterm 
elections, which experienced record midterm turnout.
    Congress's role is to assist States to strengthen their 
election security, not create a Federal takeover of election 
systems. That is why I introduced, along with my colleagues Mr. 
Walker and Mr. Loudermilk, the Election Security Assistance Act 
that will provide States assistance in updating their aging and 
vulnerable election infrastructure, empower State officials to 
secure elections, and provide additional resources for 
improving cybersecurity.
    These are what I was asked to do by my election officials, 
who are a bipartisan group of folks that work to secure our 
elections at the local level in the 13th District of Illinois. 
Every Democratic and every Republican county clerk and election 
official in my district who came to a meeting told me these are 
their priorities.
    A fundamental right of our Nation is the ability to choose 
our leaders. The American people deserve to have that right 
protected. We should secure and protect that right without 
partisan politics.
    Thank you, and I yield back the balance of my time.
    [The statement of Mr. Davis of Illinois follows:]
    [GRAPHIC NOT AVAILABLE IN TIFF FORMAT]    

    The Chairperson. Thank you.
    At this point, I would ask that the opening statements of 
all other Members be included in the record, without objection.
    The Chairperson. I now call up H.R. 2722.
    The clerk shall report the title of the legislation.
    The Clerk. H.R. 2722, to protect elections for public 
office by providing financial support and enhanced security for 
the infrastructure used to carry out such elections, and for 
other purposes.
    The Chairperson. Without objection, the first reading of 
the bill is dispensed with.
    Without objection, the bill is considered as read and open 
for amendment at any point.
    [The bill follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    The Chairperson. The Chair recognizes herself to offer an 
amendment in the nature of a substitute. The amendment has been 
made available in advance and is in front of each Member.
    The clerk shall designate the amendment.
    The Clerk. Amendment in the Nature of a Substitute to H.R. 
2722, Offered by Ms. Lofgren of California.
    The Chairperson. Without objection, the amendment will be 
considered as read and be considered as original text for 
purposes of amendment and shall be open for amendment at any 
point.
    [The amendment of the Chairperson follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    The Chairperson. I would like to take a moment here to 
explain what is in the amendment.
    As you know, we worked hard and we did have disagreements 
on H.R. 1, but we had less disagreement about the need to 
secure our infrastructure. I think the remaining disagreement--
and we did have substantial efforts to try and reach a 
bipartisan agreement, but, in large measure, the disagreement 
is whether we mandate what is in this bill or whether we work 
in a different way, with carrots more than sticks.
    I will let Mr. Davis speak later if he thinks there are 
additional matters.
    But, you know, it occurs to me that if the Russians had 
attacked with military weapons, we wouldn't say, ``Well, let's 
let each State and county figure out how to counter that.'' The 
Russians attacked us and, next election, it could be the 
Chinese. They are not too happy with what we are doing right 
now. It could be other international actors or even nonstate 
actors.
    Given the nature and the severity of that attack on our 
country, I believe it is really imperative that we as a Nation 
respond, which is why we have proposed this bill.
    I would like to explain the additional measures that are in 
the amendment in the nature of a substitute.
    First, fostering accountability for election technology 
vendors. It creates a qualified election infrastructure vendor 
designation, in conjunction with DHS, to craft cybersecurity 
guidelines and require vendors to follow those guidelines. This 
includes agreeing to report any known or suspect cybersecurity 
incidents involving election infrastructure. And grants would 
only be permitted for those qualified vendors.
    We also include specific cybersecurity standards to apply 
to paper ballot or optical scanning voting systems. There will 
be another set of standards applying to ballot-marking devices. 
The requirements are that the device is built in a manner where 
it is mechanically impossible for the device to add or change 
the vote selections on a printed or marked ballot. The device 
consists of hardware certified by the Department of Homeland 
Security and the device is not capable of tabulating votes.
    It requires that voting machines be manufactured in the 
United States, which I think is an enormously important 
requirement. And, also, because we know that we have a 
disability community that has an absolute right to vote, even 
if they are not able to mark with a pencil, we have the 
capability to meet their needs.
    We require that the use of software and hardware for which 
information is disclosed by the manufacturer be open-source.
    We also prohibit wireless communication devices. We have 
found and have seen reports from the FBI that voting systems 
were connected to wireless communication systems. That is just 
a nightmare. So we require that any wireless, power line, or 
concealed communication devices from all systems, that that be 
prohibited. From ballot-marking devices, optical scanners, we 
prohibit internet connectivity.
    We think this is a sound measure, and we think it is 
important to proceed apace. We have, when we return after the 
Fourth of July recess, 17 legislative days before the August 
recess. We have, as we know, appropriations bills that have 
eaten up our schedule. Because certain Members of the House 
believe that there should be a recorded vote on every amendment 
that ordinarily would be voice-voted, these appropriation 
matters have taken a very long time. If we have a window to 
move this bill--and we believe we have that short window next 
week--we need to take it.
    So, with that, I would ask, are there any Members seeking 
recognition for an amendment?
    Mr. Davis of Illinois. Madam Chairperson, I have an 
amendment at the desk.
    The Chairperson. The gentleman from Illinois is recognized.
    Staff will distribute the amendment and report.
    The Clerk. Amendment----
    Mrs. Davis of California. Madam Chairperson, I reserve a 
point of order.
    The Chairperson. A point of order is reserved.
    The Clerk. Amendment Offered by Mr. Rodney Davis. Short 
Title. This Act may be cited as the ``Election Security 
Assistance Act''. Sec. 2. Grants to States for Election 
Administration Improvements. (a) Authorization of Funds. 
Notwithstanding Section 104--
    Mr. Davis of Illinois. Madam Chairperson, I am okay with 
waiving the reading of the amendment.
    The Chairperson. Without objection, the reading of the 
amendment is waived.
    [The amendment of Mr. Davis of Illinois follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    The Chairperson. The gentleman is recognized for five 
minutes in support of his amendment.
    Mr. Davis of Illinois. Thank you, Madam Chairperson.
    This is the bill that was introduced by my colleagues and 
me that would, I believe, address many of the election security 
concerns that we as Americans should have in a bipartisan way 
in this country.
    This is a bill that preserves the system that we have, 
which is a decentralized election system, which allows for less 
opportunity for nefarious actors and foreign entities to be 
able to do nefarious things.
    Let's be clear. If this markup and this bill is about 
foreign interference only, we are also missing the point about 
making sure our election officials have the resources that they 
need and the flexibility they need to continue to do what they 
do best at our local level.
    I can tell you, Mike Gianasi is a Democratic county clerk 
in my home county of Christian County, Illinois. Mike and I 
have known each other since grade school and went to junior 
high together and went to high school together and you know 
what? He is in the other party, but I know darn well that Mike 
Gianasi is going to run the fairest election possible. He wants 
every vote to be counted. We have a lot of Mike Gianasis in 
every Congressional district in this country.
    But what this bill, what this original piece of legislation 
does is take away Mike's right to be able to, number one, 
afford to upgrade the election software, the election 
equipment. And it forces and mandates a certain type of 
investment that they may have already planned to invest in 
another type in the future but does nothing to address the 
concerns that we all have as Americans to keep our elections 
safe and secure.
    That is why our bill is a better bill. It doesn't have this 
one-size-fits-all approach. It is the approach that we were 
working in a bipartisan way with the staff of this Committee 
and our staff, sitting down, talking about how we can come up 
with a bipartisan solution, a bipartisan bill--something that 
we haven't seen a lot under this new Democratic Majority in 
this Congress.
    Frankly, outside of the USMCA, which I don't even know if 
that will be bipartisan, I don't know what partisan success any 
of my colleagues on the other side of the aisle are going to be 
able to tout.
    If there is anything that should be bipartisan, it is 
election security. But, instead, again, the far-left fringe of 
the Democratic Party has decided to lead this Committee and 
then also this Congress into a piece of legislation that is a 
lot more about show than it is about helping people like Mike 
Gianasi in Christian County, Illinois. That is unfortunate, but 
here we go again. It seems like H.R. 1 to me.
    If we want to do something together, our bill, the Election 
Security Assistance Act, will do that. It provides assistance 
to States to update their aging and at-risk equipment. That is 
what Democratic and Republican officials in my district told me 
they need the most and our bill does that.
    It keeps the decentralization. If we are worried about 
nefarious actors, the last thing we want as a Congress is the 
Federal Government being the clearinghouse for elections and 
registration and vote counting. It is terrible.
    The reason we have the safest elections and the most fair 
election system in the world, where we don't have a lot of 
outside, foreign observers coming in wondering whether or not 
it is going to be a fair count--in most cases, around here--
clearly, there are some instances, a la North Carolina 
recently, where you have some bad actors that will likely go to 
jail--ironically, for using the same process that is legal in 
other States. We want to make sure--and we have an amendment 
later to outlaw that, and I certainly hope my colleagues can 
join us there.
    Let's stop playing games. If we were sitting down and 
talking about how to solve this problem in a bipartisan way--
and, again, the Democratic Majority did not live up to the 
promise that they made to the American people, that they wanted 
to work with us. That is unfortunate. I certainly hope it 
changes.
    I certainly hope--I am not optimistic. I certainly hope my 
colleagues on the other side of this dais help support this 
amendment, but I can bet you I could give you the count right 
now of what it is going to be.
    So thank you for the time. I have 22 seconds, and I will 
reserve that time later, but I will yield it back now.
    The Chairperson. Thank you, Mr. Davis.
    Mrs. Davis of California. Madam Chairperson, I will 
withdraw the point of order.
    The Chairperson. The point of order is withdrawn. The 
amendment is germane.
    I appreciate the gentleman is offering a proposal that 
recognizes the important role that the Federal Government has 
in election security, although with a different approach.
    I do need to oppose this amendment.
    I fully appreciate there are elements of this proposal that 
could be a step forward from the status quo. However, voter-
verified paper ballots are the solution that really address the 
risks and threats that our Nation faces.
    Unlike the gentleman's amendment, voter-verified paper 
ballots are what the SAFE Act provides in Section 103, page 3, 
lines 6 through 24. It is the solution that nonpartisan 
cybersecurity experts have repeatedly urged Congress to adopt.
    Voter-verified paper ballots are the best way to ensure a 
voter's ballot is counted as cast. Voters should be able to see 
their vote clearly and verify that the vote they intended to 
cast is the one recorded, boosting voter confidence in cases 
where a recount is necessary.
    The SAFE Act also requires risk-limiting audits, which are 
cost-effective and go hand-in-hand with paper. These risk-
limiting audit requirements are Section 303(A)(b), page 41, 
line 9.
    Paper and risk-limiting audits really are the gold standard 
of election security and will address the national emergency 
our Nation faces and that is why I think we ought to maintain 
our commitment to that proposal.
    Moreover, unlike the gentleman's amendment, the SAFE Act 
Section 201(b) on page 53, starting at line 3, expressly 
prohibits wireless and internet connectivity in systems or 
devices upon which ballots are marked by voters or upon which 
votes are cast, tabulated, or aggregated. This is an important 
and basic cybersecurity standard we ought to require. Nobody 
thinks that connecting voter systems to the internet is a good 
idea. Sometimes low-tech is the best defense to a high-tech 
threat.
    So I would urge a ``no'' vote on this amendment.
    Does any Member wish to be recognized for the purpose of 
offering an amendment to Mr. Davis's amendment?
    Mr. Walker. Madam Chairperson, I would like to speak.
    The Chairperson. The gentleman is recognized for five 
minutes.
    Mr. Walker. I do believe that what Representative Davis is 
offering is a good amendment, but I will yield back some time 
to him to articulate further why.
    Mr. Davis of Illinois. Thank you.
    Sorry, Madam Chairperson. I know my colleagues thought I 
was done, but I am back for a few more minutes.
    Ms. Fudge. No, we didn't.
    Mr. Davis of Illinois. Yes. Thank you, my good friend Ms. 
Fudge.
    Listen, I certainly hope we can come together after this 
bill is forced through the floor--and likely going to again be 
a partisan roll call vote--I certainly hope we can come 
together on a lot of the provisions that we agree with.
    I mean, I would urge each Member on my side of the aisle 
and the other side of the aisle, to meet with your local 
election officials, hear from them. Because, frankly, that is 
why we have our bill, the Election Security Assistance Act. 
They don't want that heavy hand of Washington.
    We were talking about technology. You know, I am sure today 
there are a lot of technological experts and security experts 
that will say, you know what, every single county in the United 
States should have this certain type of system. What about 
those counties that invested their hard-earned tax dollars and 
their residents' hard-earned tax dollars in equipment that may 
be just as secure but all of a sudden they have to come in 
and--because the Federal Government says, you are going to do 
this?
    What are we doing to limit ourselves with technology? That 
is why we have provisions in our bill to account for future 
technological advances. I mean, it wasn't too long ago that 
everybody filed their tax returns on paper, right? Are we 
requiring that to happen again?
    Technology will change when it comes to elections and 
election security that can do lot of things. It may allow the 
polls to be less, less lines at our polling places. It may 
allow for more polling places to exist because of technological 
advances. And, oh, by the way, by the way--I know some may 
disagree with this; some may say, oh, this will never happen--
but it could be more secure.
    What are we doing as a Federal Government with this piece 
of legislation limiting the ability to bring new and safer 
technology into our election systems? Let's not do this. That 
is why we need to pass this amendment. We have provisions in 
place. I certainly hope my colleagues will join me in making 
that happen.
    I mean, we even had a hearing not too long ago, 
unfortunately, the EAC hearing. The EAC, Election Assistance 
Commission, is the one that is supposed to be administering 
many of the things that my colleagues want to pass in their 
bill. They are supposed to be doing this already.
    We had a hearing with EAC officials that I wish we would 
have talked more about what they were doing to protect our 
election security in this country, but instead it devolved in 
this room into a personnel meeting over who likes whom and who 
doesn't. That is where we are at right now? That is why we need 
to be serious about this.
    Your own witnesses said that DREs with voter-verified paper 
audit trails are safe in the one hearing that we had. Why are 
we now at the Federal level mandating people like Mike in 
Christian County, Illinois, to do something and to have to pay 
for something that may not be the most secure process?
    So, with that, I again urge a ``yes''' vote on my 
amendment. I will yield back to my colleague, Mr. Walker.
    Mr. Walker. Thank you, Mr. Davis.
    I will yield back, Madam Chairperson.
    The Chairperson. The gentleman from North Carolina yields 
back.
    Does any other Member wish to be--the gentlelady from 
Ohio----
    Ms. Fudge. Thank you.
    The Chairperson [continuing]. Is recognized for five 
minutes.
    Ms. Fudge. Thank you very much, Madam Chairperson.
    I just wanted to say that a lot of the things that my 
colleague Mr. Davis says I do agree with. But he made a comment 
on the record that I really wanted to clarify. He made the 
comment that what happened in North Carolina is legal in most 
other places, which, in fact, is not true. Harvesting ballots 
is, but not submitting them or changing them is not legal 
anywhere.
    So I just wanted to make the record clear. I yield back. 
Thank you.
    The Chairperson. The gentlelady from Ohio yields back.
    Does any other Member wish to be heard on the amendment 
offered by Mr. Davis?
    Then we will have a vote on the amendment.
    All those who are in favor of the amendment will do so by 
signaling aye.
    All those who are opposed will say nay.
    In the opinion of the Chair, the noes have it.
    Mr. Davis of Illinois. I would like to request a recorded 
vote.
    The Chairperson. Mr. Davis has asked for a recorded vote.
    The clerk will please call the roll.
    The Clerk. Chairperson Lofgren.
    The Chairperson. No.
    The Clerk. Chairperson Lofgren votes no.
    Mr. Raskin.
    [No response.]
    The Clerk. Mrs. Davis of California.
    Mrs. Davis of California. No.
    The Clerk. Mrs. Davis of California votes no.
    Mr. Butterfield.
    Mr. Butterfield. No.
    The Clerk. Mr. Butterfield votes no.
    Ms. Fudge.
    Ms. Fudge. No.
    The Clerk. Ms. Fudge votes no.
    Mr. Aguilar.
    Mr. Aguilar. No.
    The Clerk. Mr. Aguilar votes no.
    Mr. Davis of Illinois.
    Mr. Davis of Illinois. I would like the record to show that 
we won the voice vote, but I will vote yes.
    The Clerk. Mr. Davis of Illinois votes yes.
    Mr. Walker.
    Mr. Walker. Aye.
    The Clerk. Mr. Walker votes yes.
    Mr. Loudermilk.
    Mr. Loudermilk. Aye.
    The Clerk. Mr. Loudermilk votes yes.
    Madam Chairperson, on this vote, there are four noes and 
three yeses.
    The Chairperson. Actually, five. I think you--there are----
    The Clerk. Madam Chairperson, on this vote there are five 
noes and three yeses.
    The Chairperson. Correct. The amendment is not agreed to.
    Are there additional amendments offered to the amendment in 
the nature of a substitute?
    Mr. Davis of Illinois. Madam Chairperson?
    The Chairperson. The gentleman from Illinois is recognized.
    Mr. Davis of Illinois. I have an amendment at the desk, 
Amendment 2.
    The Chairperson. The clerk will report the amendment.
    The Clerk. Amendment to the Amendment in the Nature of a 
Substitute to H.R. 2722.
    The Chairperson. Without objection, the reading of the 
amendment is waived.
    [The amendment of Mr. Davis of Illinois follows:]
    [GRAPHIC NOT AVAILABLE IN TIFF FORMAT]
    
    The Chairperson. The gentleman is recognized for five 
minutes.
    Mrs. Davis of California. Madam Chairperson, I reserve a 
point of order.
    The Chairperson. A point of order is reserved.
    Mr. Davis of Illinois. Madam Chairperson, this goes to what 
we were talking about in the last amendment debate.
    Mandating States to use paper ballots is a Federal 
overreach. It preempts State laws and the historical and 
constitutional role of States and localities in choosing the 
method of voting that is best for their own citizens.
    Mandatory paper ballot voting system introduces many 
security, logistical, and fiscal concerns. They are especially 
vulnerable to being destroyed, misplaced, tampered with, as we 
saw in North Carolina's Ninth Congressional District during the 
most recent election cycle.
    Tampered-with paper ballots--that is where nefarious 
people, bad actors, that are in both parties, that is where 
they can play a role in determining the outcome of the 
election. That is just as much of an election security issue as 
many other issues that we ought to be able to face in a 
bipartisan way.
    These mandatory paper ballots--again, I alluded to--what 
technology may exist in the future to help us lessen the lines 
in polling places? Well, what the Majority wants us to do is to 
mandate paper ballots that have been proven time and time again 
to increase the wait time at polling places. I thought that is 
what we were trying to stop.
    It is, you know, going to require more training of poll 
workers, which we had a debate on why there is a shortage of 
poll workers in the first place at this same Committee a few 
months ago.
    This provision requires that paper ballots must be counted 
by hand or another primitive device, which effectively, again, 
eliminates the modern technology currently used in nearly every 
jurisdiction.
    In the election community, they are called direct-recording 
electronic machines, or DRE machines, addressed by many of the 
witnesses that the Majority called here to hearings in the only 
one hearing we had on this issue before this bill was scheduled 
for a markup. You know, this one hearing was the only one we 
had in this Congress to address voting systems. Not one witness 
claimed that voting machines were inherently unsafe or that 
paper ballots were foolproof.
    Having personally spoken to local and State election 
administrators in my own State, I know there is overwhelming 
support for States to have the option to choose the right 
voting methods for themselves. They ought to have the right to 
choose. There is simply no basis for a proposal requiring the 
use of paper ballots in every election.
    Now, additionally, I recognize that paper ballots come in 
various forms, but I am concerned that proposals like this will 
bring us back to the days of hanging chads in Florida during 
the Presidential election of 2000.
    Last but not least, a paper ballot voting system would be 
detrimental to the disability and elderly community. We need to 
ensure that every eligible American has the opportunity to 
vote.
    You are going hear a lot about assisted voting devices for 
those who are disabled, but they are not the same as the DRE 
machines that many in the disabled community are using right 
now, that many communities and election jurisdictions are 
already using. It would be an additional cost to take another 
Federal mandate to have the devices in place that would drop 
the optical scanned card out. That is an added cost, it is an 
unfunded mandate to the people in every election jurisdiction.
    If the Majority wants to federalize the election system, be 
honest about it. Just do it. Run it at the national level. Try 
and run that through. But let's not use paper ballots as an 
unfunded mandate to the county election officials in all our 
States.
    So, with that, I will reserve the balance of my time.
    The Chairperson. The gentleman yields back.
    Mrs. Davis of California. I will withdraw the point of 
order.
    The Chairperson. The point of order is withdrawn.
    I oppose this amendment striking the mandate for paper 
ballots, because striking the mandate would completely 
undermine the bill and the security that we are trying to 
achieve.
    Section 102, page 3, lines 6 through 24 of this bill 
mandates that States conduct all Federal elections using voter-
verified paper ballots. This provision, along with Section 
304(A)(b), which is on page 41, line 9, mandates post-election 
risk-limiting audits and forms the heart of this bill.
    We simply cannot be sure that our elections are free from 
outside interference unless we have an auditable paper trail 
that we can use to confirm reported election results. Voter-
verified paper ballots are the best way to ensure a voter's 
ballot is counted as cast. Voters should be able to see their 
vote clearly and verify that the vote they intended to cast is 
the one recorded, boosting voter confidence in cases where a 
recount is necessary.
    According to the Brennan Center, in 2018, most States used 
computerized voting machines that were at least 10 years old 
and which election officials said must be replaced before 2020. 
Obsolete software can pose a security risk.
    We need to ensure that Americans' faith in our democracy is 
preserved. Paper ballots are the best way to ensure that faith.
    I would note also that the SAFE Act, on page 3, requires 
that States use voter-verified paper ballots, but we also 
permit, on page 16, in line 15, that States that use direct-
recording electronic machines, DREs, that provide paper 
receipts to fulfill the requirements may continue to do so 
until 2020.
    These machines are not as secure as paper, but they are not 
as dangerous as paperless electronic voting machines. In order 
to ensure that the most vulnerable machines are taken off the 
market, this bill prioritizes the replacement of paperless 
voting machines and provides two extra years to replace DREs 
with paper receipts.
    We also require that paper ballots are available at all 
locations that use DREs with receipts in order to ensure that 
we maximize the number of voters that cast their ballots on 
voter-verified paper ballot systems in the 2020 election.
    Paper reduces the risk of hacking and changing votes. It 
creates a trail for potential recounts and audits. You know, 
the one thing that every American should know is, when they go 
in, they cast their ballot, that that ballot is counted as 
cast. That is very simple.
    I think it should be a requirement. The idea that we would 
make this somehow optional--I respect the gentleman from 
Illinois, as he knows. But when the Russian attack occurred in 
the last election and our security people, our national 
security people, said that was a trial run for the next 
election, you don't say, well, let's leave this up to the good 
people who--and they are good people. We all have our registrar 
of voters who are our friends in counties but you wouldn't ask 
them to stand for the country if there were actual missiles 
coming at the United States. These are cyber missiles. This is 
an attack on our Federal system, and we need a Federal 
response.
    For these reasons, I oppose the amendment.
    Do other Members wish to be heard on Mr. Davis's amendment?
    Mr. Raskin is recognized for five minutes to strike the 
last word.
    Mr. Raskin. I move to strike the last word. Madam 
Chairperson, thank you very much and forgive me for being late. 
I was just on the Floor with an amendment. This legislation is 
of essential importance to the American people, and I rise in 
opposition to the gentleman from Illinois's amendment.
    Let me first speak on behalf, Madam Chairperson, of what we 
are doing here, which is we are rising to the defense of 
America's elections. I am surprised to hear that people are 
questioning our role in this process. The Constitution says in 
the Guarantee Clause that Congress must guarantee to every 
State a republican form of government--that means a 
representative form of government--based on democracy that 
works and channels for electoral participation that guarantee 
the will of the people is expressed, heard, counted, and then 
embodied in representation.
    Congress also has the power and the authority through 
Section 5 of the 14th Amendment to guarantee equal protection 
rights for everybody. That has been the basis, along with the 
15th Amendment, of a lot of Federal action to vindicate the 
voting rights of the people and certainly that was the basis 
for the Voting Rights Act of 1965.
    At every turn, whenever Congress has acted either to amend 
the Constitution or to embody in statute electoral democracy, 
there have been the claims that this is somehow a violation of 
federalism or a violation of States' rights. On the contrary, 
our action defends democracy at the local level to make sure 
that everybody's vote is actually counted.
    The requirement of individual, durable, voter-verified 
paper ballots is absolutely essential in the cyber age, 
especially in the wake of what Special Counsel Mueller 
described as a sweeping and systematic attack on American 
electoral democracy in 2016 by Russia.
    That is not any kind of partisan invention, and it is 
something that should alarm every American of whatever 
political persuasion, that there was an organized, systematic, 
comprehensive campaign by Russians to inject poison propaganda 
into our body politic through Facebook and through Twitter and 
through other social media mechanisms; to engage in cyber 
surveillance and sabotage at the DNC, at the DCCC, at the 
Clinton campaign; and then also to directly attack the election 
machinery in more than 30 States, to actually hack into the 
computer systems in more than 30 different States.
    So that is a matter for extraordinary alarm in the world's 
first modern political democracy. We have to make sure that we 
hang on to our territorial political integrity and sovereignty 
and self-government.
    We know that Russia does not have the power to attack us 
militarily, they don't have the power to attack us 
economically, and they don't have the power to attack us 
intellectually because our Constitutional democracy is far 
superior to the kleptocracy they have there. But they have been 
able to attack us online, through the internet and through the 
systematic cyber campaign that they led in 2016.
    Our intelligence agencies have warned us they are coming 
back again; they never stopped. And this is part of a global 
campaign where they have done the same thing in elections in 
Europe, Asia, and in Africa.
    So this legislation is essential. The American people want 
and deserve voter-verified paper ballots, and it is a major 
check against computer manipulation of the results. I oppose 
this amendment. I strongly support the legislation.
    Madam Chairperson, I yield back to you.
    The Chairperson. The gentleman yields back.
    Do other Members wish to be heard on Mr. Davis's amendment?
    If not, then the question is on the amendment.
    All those who are in favor will say aye.
    All those who are opposed will say no.
    In the opinion of the Chair, the noes prevailed and the 
amendment is not agreed to.
    Are there additional amendments that Members wish to offer?
    The gentleman from Georgia.
    Mr. Loudermilk. Madam Chairperson, I have an amendment at 
the desk.
    The Chairperson. Oh, I am sorry. Mr. Davis wished to have a 
roll call, and so we will get right back to you.
    The clerk will call the roll.
    The Clerk. Chairperson Lofgren.
    The Chairperson. No.
    The Clerk. Chairperson Lofgren votes no.
    Mr. Raskin.
    Mr. Raskin. No.
    The Clerk. Mr. Raskin votes no.
    Mrs. Davis of California.
    Mrs. Davis of California. No.
    The Clerk. Mrs. Davis of California votes no.
    Mr. Butterfield.
    Mr. Butterfield. No.
    The Clerk. Mr. Butterfield votes no.
    Ms. Fudge.
    Ms. Fudge. No.
    The Clerk. Ms. Fudge votes no.
    Mr. Aguilar.
    Mr. Aguilar. No.
    The Clerk. Mr. Aguilar votes no.
    Mr. Davis of Illinois.
    Mr. Davis of Illinois. Aye.
    The Clerk. Mr. Davis of Illinois votes yes.
    Mr. Walker.
    Mr. Walker. Aye.
    The Clerk. Mr. Walker votes yes.
    Mr. Loudermilk.
    Mr. Loudermilk. Aye.
    The Clerk. Mr. Loudermilk votes yes.
    The Chairperson. The clerk will report.
    The Clerk. Madam Chairperson, on this vote, there are six 
noes and three yeses.
    The Chairperson. The amendment is not agreed to.
    The gentleman from Georgia is recognized for the purpose of 
offering an amendment.
    Mr. Loudermilk. Thank you, Madam Chairperson. I have an 
amendment at the desk.
    The Chairperson. The clerk will report the amendment.
    The Clerk. Amendment to the Amendment in the Nature of a 
Substitute to H.R. 2722, Offered by Mr. Barry Loudermilk of 
Georgia.
    [The amendment of Mr. Loudermilk follows:]
    [GRAPHIC NOT AVAILABLE IN TIFF FORMAT]
    
    Mrs. Davis of California. I reserve a point of order, Madam 
Chairperson.
    The Chairperson. A point of order is reserved.
    The gentleman from Georgia is recognized for five minutes 
in support of his amendment.
    Mr. Loudermilk. Thank you, Madam Chairperson.
    While my amendment addresses the recycled paper aspect of 
this, I am going to speak on the entirety of the paper ballot 
issue that we are talking about here.
    Look, the Russians, they are bad. Last year was not the 
first time that they have ever tried to attack us. And I am 
speaking from experience in this because I have a background in 
information technology, cybersecurity, and in the intelligence 
community. The Russians have been trying to interfere with our 
elections for years and years and years.
    Let me tell you, if we were, as was said, trying to rise to 
the defense against Russia, this is the exact opposite of what 
we should be doing. Yes, the Russians did attempt to get into 
our systems. Yes, they got into some election databases. But 
the thing they did not get into were the actual voting 
machines. What are we addressing here? The voting machines.
    Now, there are some aspects of this, I think, that we do 
need to address, but one thing that has been missing in all of 
this is, why were the Russians able to get as far as they did 
get? I have spoken about this before, because in any type of 
military operation and in cybersecurity, when you see a threat, 
you must respond to that threat.
    Mr. Michael Daniel, the Cybersecurity Coordinator for 
President Obama, was told to stand down when he told them that 
the Russians were actively trying to get into our security 
system. He testified before the Senate that he was told to 
stand down. Now, is that the only reason? No. But the fact that 
you were not responding to that known threat makes us more 
vulnerable. The vulnerability was voter database systems, which 
is bad.
    Now, here is the problem with the paper ballot. And I have 
spent a lot of my career helping people to automate on a secure 
basis. The risk that we face, as the ranking member has brought 
up, is paper ballots are the most susceptible for voter fraud. 
They are the most susceptible when that is your primary method 
of actually voting. That will perpetuate ballot harvesting and 
especially when the minority has brought up they don't even 
like signature verification. It is much harder to verify them.
    So, when we had the experts here before that were 
testifying, the most secure way--and I am all for having paper 
verification. I have been fighting for this for years in the 
State legislature. I have been speaking about it here--is to 
use the automation of the DREs, where you verify the person who 
is there punching the buttons. The automation allows us to move 
more people through quicker. We can get more polling places 
open.
    You use your technology that then produces a paper backup 
report of how that person voted. They are using the automation 
that then basically prints an audit that they can verify that 
this was the way they voted. They sign it; it is dropped in a 
secure box.
    Now, if there is the need for a recount, then you have that 
paper backup. The problem we have with this legislation is it 
is making the paper the primary reason. If you go back and you 
look at most of the contested elections, how many contested 
elections have we had that they were--that they actually 
created a new language, like ``hanging chad.'' I mean, these 
are manual ballots. We got away from that because we wanted 
automation that was more secure.
    There is a lot that we can do and there is a lot we should 
be doing on election security. But let me tell you, we are the 
wrong people to be doing it. It is the boots on the ground at 
the State level who are managing those elections who have a 
greater interest in making sure that they are safe and secure 
than we do.
    Here is another thing. What the Russians are after is not 
to disrupt our election system. I can promise you they didn't 
want the guy who is in the White House in there any more than 
anybody else. Right? What they are trying to do is sow discord 
and distrust in the American people of our election system.
    Right now, the Federal Government has the lowest approval 
rating by the American people than any time in history and, 
with that, if we then take over the election system, that is 
just going to further deteriorate and play into the hands of 
what they want.
    That is why I am submitting this amendment and also in 
support of the other amendment, is I think we need to step 
back. We need to look at this from what is the actual thing we 
should be doing, not putting in something that could perpetuate 
something we are trying to get away from, ballot harvesting.
    With that, Madam Chairperson, I encourage all of my 
colleagues on both sides to support this amendment. I yield 
back.
    The Chairperson. The gentleman's time has expired.
    The amendment is germane, so the gentlelady from California 
withdraws her point of order.
    I would like to note that the amendment actually strikes 
the recycled paper provision in the bill. That provision was 
approved unanimously by the House in the deliberation of H.R. 1 
and so is included in this bill.
    The gentleman's discussion, however, as we know, was about 
the overall issue of paper ballots. I have addressed that issue 
in the prior amendment that was defeated.
    Certainly, I do not challenge the intentions of the 
gentleman in any way, but I do think that to say that the 
security of the entire Nation is more properly lodged in the 
hands of county officials rather than the Federal Government 
when it comes to attacks by foreign nations I don't think is 
correct. I don't agree with that, in any case.
    I think the paper ballot mandate we have heard from experts 
repeatedly is where we need to go. And I think this amendment 
should therefore be opposed.
    Do other Members wish----
    Mr. Davis of Illinois. Madam Chairperson.
    The Chairperson. The gentleman, Mr. Davis, moves to strike 
the last word and is recognized for five minutes.
    Mr. Davis of Illinois. Thank you, Madam Chairperson.
    I would like to remind those in the audience and my 
colleagues that, while, yes, this language was put into the 
underlying bill, we did not pass it unanimously. I was on the 
Floor and did vote ``no'' but, because we had so many other 
roll call votes on H.R. 1, we decided not to ask for a roll 
call on this provision.
    This is just a provision that----
    The Chairperson. Would the gentleman yield?
    Mr. Davis of Illinois. Yes.
    The Chairperson. I would like to correct my statement. It 
was adopted by voice vote and ordinarily that is considered 
unanimous, but I take the gentleman's point.
    I yield back.
    Mr. Davis of Illinois. Only because this is just a 
provision that goes back to the top-down approach that I 
believe the Majority is taking.
    If you think about this, look, we all want to recycle more, 
we want to do what we can to help the environment. But, I mean, 
if you think about the Federal Government tells, let's say, 
jurisdictions in Puerto Rico that you have to have recycled 
paper, and all of a sudden they run out of ballots or they have 
a problem printing ballots, and they are trying to figure out 
where to get the new ballots printed, and it is going to be 
more convenient for them to maybe use a printing office in 
another Caribbean nation versus here.
    I mean, look, we all want to make sure--or they wouldn't 
have recycled paper; it is only going to have to be new paper. 
Are they going to have to apply to the Federal Government to 
see if they can make that purchase?
    I mean, come on. These are the provisions that just don't 
make sense. They just don't make sense.
    I can't say enough about what we should do to move election 
security priorities forward. It can happen in a bipartisan way. 
That is why we introduced our version, our bill, that would 
take provisions like this out and make sure local election 
officials use what is less costly to them and more convenient 
to them without some Federal mandate that is based upon a 
political philosophy rather than cost-effectiveness and rather 
than reality in many cases.
    And I would like to yield time to--as much time as he can 
consume to my cohort, Mr. Loudermilk.
    Mr. Loudermilk. Thank you. I thank my fellow cohort for 
that time.
    I want to clarify, to understand, my point being: We are 
going after the wrong thing if we want to secure our Nation 
against Russian or any foreign influence. It was voter 
databases that were actually hacked. This doesn't address that. 
This is going after the physical machines that were not hacked, 
alright?
    I fully support some Federal standards, us continuing 
through Department of Homeland Security, through our Department 
of Defense, working with States to set standards. But even 
within those States, there is a multiplicity of databases. They 
use different platforms. You can't come in and dictate to them 
a specific type of security because it may not be tailored 
exactly to those systems.
    If we want to address standards for security of voter 
databases as it relates to Federal elections, I think that is 
wholly appropriate. But to target the one thing that wasn't 
manipulated is ignoring the larger problem.
    I yield back to my cohort.
    The Chairperson. The gentleman yields back.
    Mr. Davis of Illinois. I yield back.
    The Chairperson. Mr. Davis yields back.
    The gentleman from North Carolina is recognized for five 
minutes.
    Mr. Butterfield. Thank you, Madam Chairperson. I move to 
strike the last word.
    The Chairperson. The gentleman is recognized.
    Mr. Butterfield. Madam Chairperson let me just begin by 
saying that I oppose the gentleman's amendment and support your 
amendment in the nature of a substitute. I think your 
legislation is thoughtful. It is a Federal response to a huge 
problem. Requiring paper ballots will protect democracy, in my 
opinion.
    It is long past time for Congress to act boldly with 
legislation that responds to foreign interference that took 
place in our 2016 election to strengthen election security so 
we can protect our democracy from future attacks. So we are 
here today taking the very first step.
    Thank you to the Chairperson for including several 
provisions in your legislation that respond to incidents that 
occurred in my Congressional district during the 2016 election.
    The Mueller report found that Russian military intelligence 
``targeted''--this is a quote--``targeted private technology 
firms responsible for manufacturing and administering election-
related software and hardware, such as voter registration 
software and electronic polling stations.''
    The report goes on, Madam Chairperson, to name a redacted 
voting technology company that developed software used by 
numerous U.S. counties to manage voter rolls and had malware 
installed on the company's network.
    Subsequent reporting identified the redacted voting 
technology company as the very same one used in my district and 
whose electronic pollbook caused major problems in Durham 
County during the election. The pollbook product provided by 
the vendor catastrophically failed at several precincts in 
Durham, causing poll workers to transition to paper records--
which is what we are talking about--and pollbooks in the middle 
of election day, which led to long lines and delays. This is a 
fact. And this led some voters to leave. Yes, they left the 
polling place without casting a ballot.
    Section 297(a) of your legislation contains provisions that 
require vendors to notify the EAC and DHS of suspected 
cybersecurity incidents within three days. This reporting 
requirement will ensure that we will know about suspicious 
activity within days instead of three years later.
    So I thank you for your legislation, Madam Chairperson. I 
intend to support it and intend to oppose the gentleman's 
amendment.
    I yield back.
    The Chairperson. If the gentleman would yield to me for 
just an additional comment.
    Mr. Butterfield. I yield to the Chairperson, yes.
    The Chairperson. The bill before us does address the issue 
of voter rolls by providing in the grant Section, 297(a), that 
these funds can go towards enhancing cyber protection of voter 
systems and directing the EAC to create cybersecurity 
guidelines that would apply to voter registration databases.
    We understand that the documented incursions were to voter 
rolls. And there is a multiplicity of how those rolls are 
maintained. We do not intend to mandate to States how those 
rolls are maintained. But we do address the issue through the 
grant program and through voluntary cyber guidelines.
    I will just say this, that you skate to where the puck is 
going to be, not to where it was last time. The biggest 
vulnerability we have is--can you imagine if in 2020 we have 
the votes actually changed because of insecure voting systems? 
That would be a catastrophe for our country.
    So, with that, I would ask that those who favor the 
gentleman's amendment vote aye and those who oppose it will say 
no.
    Those who favor will say aye, please.
    And those opposed will say no.
    In the opinion of the Chair, the noes have it.
    Mr. Davis of Illinois. Madam Chairperson, I ask for a roll 
call vote.
    The Chairperson. Mr. Davis asks for a roll call.
    The clerk will call the roll, please.
    The Clerk. Chairperson Lofgren.
    The Chairperson. No.
    The Clerk. Chairperson Lofgren votes no.
    Mr. Raskin.
    Mr. Raskin. No.
    The Clerk. Mr. Raskin votes no.
    Mrs. Davis of California.
    Mrs. Davis of California. No.
    The Clerk. Mrs. Davis of California votes no.
    Mr. Butterfield.
    Mr. Butterfield. No.
    The Clerk. Mr. Butterfield votes no.
    Ms. Fudge.
    Ms. Fudge. No.
    The Clerk. Ms. Fudge votes no.
    Mr. Aguilar.
    Mr. Aguilar. No.
    The Clerk. Mr. Aguilar votes no.
    Mr. Davis of Illinois.
    Mr. Davis of Illinois. Yes.
    The Clerk. Mr. Davis of Illinois votes yes.
    Mr. Walker.
    [No response.]
    The Clerk. Mr. Loudermilk.
    Mr. Loudermilk. Yes.
    The Clerk. Mr. Loudermilk votes yes.
    Madam Chairperson, on this vote, there are six noes and two 
yeses.
    The Chairperson. The amendment is not agreed to.
    Are there additional amendments being offered?
    The gentleman from Georgia is recognized.
    Mr. Loudermilk. Thank you, Madam Chairperson. I have an 
amendment at the desk.
    The Chairperson. The clerk will report the amendment.
    The Clerk. Amendment to the Amendment in the Nature of a 
Substitute to H.R. 2722, Offered by Mr. Barry Loudermilk of 
Georgia.
    Strike Subtitle B of title I and insert the following:
    Subtitle B--Risk-Limiting Audits.
    Sec. 121. Funding to Implement Risk-Limiting Audit System.
    (a) Availability of Funding.--Subtitle D of title II of the 
Help America Vote Act of 2002 (52 U.S.C.----
    The Chairperson. Without objection, the reading of the 
amendment is waived.
    [The amendment of Mr. Loudermilk follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mrs. Davis of California. I reserve a point of order.
    The Chairperson. A point of order is reserved.
    The gentleman from Georgia is recognized for five minutes 
in support of his amendment.
    Mr. Loudermilk. Well, thank you, Madam Chairperson. I hope 
not to take that much time with this amendment. I do want to 
respond to a couple of other issues in my time here.
    One, we understand the Russians attack; they do 
cyberattacks. Lockheed, other defense contractors, they are 
continually being attempted to be hacked by the Russians. That 
is what they do. They are bad people. They have nefarious 
intentions. We protect ourselves against those attacks of what 
they are attacking.
    Now, I appreciate Mr. Butterfield's comments regarding the 
manufacturer and he is absolutely right, they are going to be 
going after these manufacturers. The best way to know, though, 
if they are successful is to be able to immediately identify if 
the voting machine is not reporting accurately while the person 
is there voting, which is exactly what I proposed: that a paper 
ballot is generated after the DRE.
    That is the best way of telling. The local boots on the 
ground are right there to see that there is something going 
wrong with it, and it gives the voter the option then to change 
what is on that paper ballot but yet you still get the 
efficiency of electronic voting.
    The other aspect is--I appreciate that we are trying to 
address some of where the Russians were able to hack into the 
voter rolls. But if we are going to force our States to spend 
the limited resources they have changing their voting machines, 
they aren't going to have a whole lot of money left over for 
securing their databases, which is the most vulnerable aspect 
we know of at this point. I am not against making some changes. 
I just think we are going in the wrong direction.
    I think we are going in the wrong direction with the audits 
as well. Simply, all I am saying is, instead of dictating to 
the States the specific type of audit to use--there are four 
types of audits out there--let's provide the States with some 
optional grant money that they can use to actually choose the 
type of audit that best fits in their election system, the best 
that would work well for them.
    So I am not trying to get rid of the audit altogether, but 
instead of mandating, again, from the Federal level, let's 
provide grants to the States and give them the flexibility to 
implement these.
    I yield back.
    The Chairperson. Thank you.
    The gentleman from Georgia yields back.
    Mrs. Davis of California. I will withdraw the point of 
order.
    The Chairperson. The gentlelady withdraws her point of 
order.
    I would ask that we oppose this amendment.
    Risk-limiting audits are really the gold standard of post-
election audits. These audits involve hand-counting a certain 
number of ballots using advanced statistical methods to 
determine with a high degree of confidence that the reported 
election outcome is accurate.
    The audits accomplish two important goals simultaneously: 
ensuring the integrity of our elections and increasing 
confidence of the public in the election results, to wit, that 
each individual's vote was counted as cast.
    The SAFE Act requires States to implement risk-limiting 
audits in Section 303(A)(b), which is on page 41, because these 
audits go hand-in-hand with moving to paper ballots. We need 
audits to ensure that ballot-marking devices or optical 
scanners were not hacked and that the reported election results 
are accurate.
    I certainly appreciate the vital role States and counties 
play in administering elections, but it is the duty of the 
Federal Government to help States respond to this national 
security. Though the timeline to implement audits is tight, the 
issue is simply too important to delay. We can't risk 
undermining our democracy by having an election where there is 
doubt about the reported results.
    Are there additional Members wishing to be heard?
    If not, I would also like to say I am pleased that this 
amendment also highlights the importance of vendors notifying 
Federal and State authorities in the event of a cyber incident. 
That provision is already in the bill, and I think we all agree 
that that provision of the bill is important.
    With that, those who are in favor of this amendment will 
say aye.
    And those who are opposed will say no.
    In the opinion of the Chair, the noes have it.
    Mr. Davis of Illinois. I would like a verification of that.
    The Chairperson. Mr. Davis has asked for a recorded vote. 
The clerk will please call the roll.
    The Clerk. Chairperson Lofgren.
    The Chairperson. No.
    The Clerk. Chairperson Lofgren votes no.
    Mr. Raskin.
    Mr. Raskin. No.
    The Clerk. Mr. Raskin votes no.
    Mrs. Davis of California.
    Mrs. Davis of California. No.
    The Clerk. Mrs. Davis of California votes no.
    Mr. Butterfield.
    Mr. Butterfield. No.
    The Clerk. Mr. Butterfield votes no.
    Ms. Fudge.
    Ms. Fudge. No.
    The Clerk. Ms. Fudge votes no.
    Mr. Aguilar.
    Mr. Aguilar. No.
    The Clerk. Mr. Aguilar votes no.
    Mr. Davis of Illinois.
    Mr. Davis of Illinois. Yes.
    The Clerk. Mr. Davis of Illinois votes yes.
    Mr. Walker.
    [No response.]
    The Clerk. Mr. Loudermilk.
    Mr. Loudermilk. Yes.
    The Clerk. Mr. Loudermilk votes yes.
    The Chairperson. The clerk will report.
    The Clerk. Madam Chairperson, on this vote, there are six 
noes and two yeses.
    The Chairperson. The amendment is not agreed to.
    Are there additional amendments that Members wish to offer?
    Mr. Davis of Illinois. I do have an amendment at the desk, 
Madam Chairperson.
    The Chairperson. The clerk will report the amendment.
    The Clerk. Amendment to the Amendment in the Nature of a 
Substitute to H.R. 2722----
    Mrs. Davis of California. I reserve a point of order.
    The Chairperson. The gentlelady from California reserves a 
point of order.
    I ask unanimous consent the reading of the amendment be 
waived.
    [The amendment of Mr. Davis of Illinois follows:]
    [GRAPHIC NOT AVAILABLE IN TIFF FORMAT]
    
    The Chairperson. Mr. Davis is recognized for five minutes 
in support of his amendment.
    Mr. Davis of Illinois. Thank you, Madam Chairperson.
    If my colleagues across the aisle and I can agree on one 
substantive thing on election security, it is that there is 
still a need for funding for State and local election 
officials.
    I held a roundtable on this issue, as I have discussed 
earlier, and it was in my district, and heard directly from 
those that run my home State's elections.
    Though I agree that the Federal Government has a 
responsibility to States to assist with States' election 
administration, I want to make it clear that this is not the 
sole responsibility of the Federal Government. As 
representatives of our constituents, we need to be responsible 
to our taxpayers and be diligent to spend Federal funds only 
when it is absolutely necessary.
    Additionally, it is ultimately the role of the States--the 
States--to administer their own elections. Each State's 
election administration structure and procedures grow--they 
grew organically based on their unique needs and challenges.
    This is why I propose to include a 25-percent funding match 
from States that receive funding under this bill. This creates 
a system that provides funding on a need-based criteria and 
forces States and localities to have some skin in the game. 
This is similar to last year's appropriations bill, which 
required States to match 5 percent of Federal funds with State 
funds to be eligible.
    I do want to thank my colleagues for the lively debate on 
this issue. And I do want to point out that the debate over the 
last amendment that, if passed, would have made sure that only 
recycled paper would not have been a requirement from the 
Federal Government to be used in every single election 
authority, but we delved into an issue on paper ballot backups 
and voter verification versus DREs.
    I want to say, I think it is a terrible thing that the 
Federal Government is mandating where our localities can and 
cannot purchase ballots and the certain types of ballots they 
have. That is an unfunded mandate that I would have hoped got 
more bipartisan support.
    I have a lot of concerns about election security, because 
my home State of Illinois, the Illinois State Board of 
Elections, was part of an initial attempt by nefarious actors 
to get information. We must do what we can to stop that. This 
bill that the majority has proposed clearly doesn't do that. 
Let's work together to get our local election officials the 
funding that they are requesting. Let's do that together.
    I think a match requirement is typical of Federal 
Government. Why wouldn't we ask them to devote some resources? 
Frankly, many have devoted their own resources to machines that 
this bill, if passed, may make obsolete. That is something we 
have to be thinking about too.
    Look, I really appreciated my colleague Mr. Raskin almost 
saying that we needed States and localities to be republican 
governments, but I understood what you said. I agree. We are a 
constitutional republic and there is a role for the Federal 
Government.
    That is why I have my bill, the bill that we have 
introduced together, that we believe is going to be a less of a 
top-down approach, more cost-effective and also represent 
solving the problems of what our local election and State 
election officials need.
    And I can't say enough, we all want to work together to 
stop countries like Russia from coming into our election 
system. But requiring paper ballots that will inevitably lead 
to longer lines is the antithesis of what my good friend, 
Chairwoman Fudge, the Elections Subcommittee on this Committee, 
had hearings throughout this country to talk about. We were 
told that long lines cause problems with people being able to 
cast their ballots. I would argue many of the provisions in 
this bill that the majority is supporting would cause longer 
lines. That is not what we should be doing. That is what we 
were told at the hearings that were held throughout this 
country.
    We need to do better. I know--not just because I wrote it 
and my colleagues wrote it--I know our bill is better at 
addressing these concerns. But I know it didn't pass as an 
amendment to the first amendment.
    Let's at least come together and let's show some 
bipartisanship on making sure that States and localities help 
plan for their future. And then we can make our Federal dollars 
go further and help the counties that need it the most in every 
election jurisdiction.
    So, with that, I ask that this amendment be supported in a 
very bipartisan way. And if it is not, I certainly ask the 
Chair to rule in that voice vote a little better than the last 
few times.
    The Chairperson. Does the gentleman yield back?
    Mr. Davis of Illinois. I guess.
    The Chairperson. The gentlelady withdraws her point of 
order.
    I oppose the amendment to add a requirement that States 
provide this additional match to accompany the funding 
allocated in the SAFE Act.
    As we have discussed in this markup, the security of our 
national elections is a national concern and a national 
emergency, given the threat that has been outlined to us by the 
Director of National Intelligence, the Director of the FBI, and 
others. It should not be reliant on State budget processes, as 
the Ranking Member has indicated.
    This bill does institute requirements to protect our 
election and making those safety requirements contingent on the 
State budget process, I believe, is unwise. We ought to 
shoulder that responsibility if we are--we should not require a 
25-percent match.
    Article I, Section 4 of the Constitution allows the 
Congress to provide for the conduct of Federal elections. We 
are using that authority to protect our country, and we should 
not make it contingent on State budget processes.
    So I would oppose the gentleman's amendment.
    Are there other Members who wish to be heard?
    The gentleman from Georgia.
    Mr. Loudermilk. I move to strike the last word.
    The Chairperson. The gentleman is recognized for five 
minutes.
    Mr. Loudermilk. Madam Chairperson, I don't know if I have 
mentioned or articulated my opposition to mandating the paper 
ballots, but I do want to make one point.
    Here, in a little while, hopefully in about 20 minutes or 
so, they are going to finish debate on the House Floor. The 
Speaker pro tempore is going call us all to the Floor, and the 
last thing that the Speaker is going to say before we go to the 
Floor is ``Members will record their votes by electronic 
device.'' Why are we doing that? Because it is more efficient. 
Because we can move more votes. As anybody that has been on the 
House Floor in the last few days knows, we have moved a lot of 
votes through in a short amount of time because we are voting 
via electronic device.
    But we have a physical verification afterwards. You throw 
your vote up on the machine, you can look and see how it is 
voting there. And, if you really want, you can go right back to 
the back and you can pull a paper printout and verify that that 
is the way that you voted.
    This is what----
    Mr. Davis of Illinois. Would the gentleman yield?
    Mr. Loudermilk. This is what we are saying--yeah, I will 
yield.
    Mr. Davis of Illinois. Is what you are saying is, if we 
were not able to use electronic voting devices in the House, we 
would have to go back to what the Senate uses?
    Mr. Loudermilk. Reclaiming my time, yes, the gentleman is 
correct.
    Mr. Davis of Illinois. I am a ``no.''
    Mr. Loudermilk. Why are we using electronic devices with 
verification afterwards? Because it is more efficient, we can 
do more. If we want to make sure more people are voting, let's 
go the route that will allow us to put more voters into ballot 
offices with the verification afterwards.
    I yield back.
    The Chairperson. The gentleman from Georgia yields back.
    The gentlelady's point of order has been withdrawn.
    If I may just make a comment, the analogy between the 435 
Members of the House casting ballots in the House chamber and 
those votes are displayed in the chamber in real-time while the 
Members look at them, I think, is quite different than millions 
of Americans casting their votes for a later count. DREs can be 
hacked to produce different electronic and printed results.
    Actually, a recent study by the Georgia Institute of 
Technology showed last year that, unlike in the House chamber, 
half of the people didn't check their actual printed receipt 
from the DREs to see whether they matched their vote. The other 
half looked at it for about three seconds, so whether they made 
that connection is speculation. But half didn't even look.
    I would be surprised if Members of the House of 
Representatives didn't look at the big board. But I will tell 
you this. If there is a vote that seems weird, our staff is 
running around saying, did you mean to vote that way? So it is 
a completely different analogy.
    The gentleman from Maryland is recognized for five minutes.
    Mr. Raskin. Madam Chairperson, I move to strike the last 
word. Thank you.
    Just to echo and elaborate on the Chairperson's refutation 
of that argument, in the first place, the House of 
Representatives has not been hacked, at least yet, directly by 
the GRU and by the agents of Vladimir Putin. We are not aware 
that we have that particular security problem on the Floor of 
the House yet, although I agree that we should, obviously, 
remain vigilant.
    But the Chairperson's point, I think, is dispositive. If 
there were computerized voting taking place in a State without 
a paper trail but everybody's vote immediately appeared online, 
where they could check it, then you would have a proper 
analogy. But what we are afraid of is the use of computer 
voting technology in the States where there is no paper trail 
and no one can verify it in any way. You are just sort of--you 
are entering your vote online and then it just disappears, and 
it could be subject to manipulation. So----
    Mr. Loudermilk. Would the gentleman yield?
    Mr. Raskin. Yes, I would be happy to.
    Mr. Loudermilk. I agree in part with you, but we are 
mandating in the wrong direction. I think it would be superior 
to have a voting system that printed a ballot that you could 
check it right there.
    And, also, I am not questioning the Chairperson's study 
that she brought up from Georgia Tech. I am not sure what 
voting systems they were looking at, but the State of Georgia 
does not have the ability to print a paper ballot after using 
the DRE. I don't know if they were looking at other States when 
they measured whether someone looked at it or not, but the 
State of Georgia's systems physically can't do it. I have been 
fighting that fight in Georgia for many years.
    My point is, we are going in the wrong direction, that, 
yes, in part, we can look up there immediately, but you can 
also go and you can pull a printed printout of how you voted. 
The analogy, I think, is consistent, is that the reason we went 
to electronic voting is for efficiency. We have a way of 
verifying.
    And that is all the point I was making, is the American 
people would like to see us abide by the same rules that we put 
for them. I think we have adopted something for efficiency with 
verification, and that is my point.
    I yield back. Thank you.
    Mr. Raskin. Thank you.
    And I yield back.
    The Chairperson. The gentleman from Maryland yields back.
    Unless others wish to be heard, we will have a vote on the 
amendment.
    All those who are in favor of the amendment will say aye.
    Those who are opposed will say no.
    In the opinion of the Chair, the noes have it.
    Mr. Davis of Illinois. I ask for a roll call vote.
    The Chairperson. Mr. Davis has asked for a roll call vote. 
The Clerk will call the roll.
    The Clerk. Chairperson Lofgren.
    The Chairperson. No.
    The Clerk. Chairperson Lofgren votes no.
    Mr. Raskin.
    Mr. Raskin. No.
    The Clerk. Mr. Raskin votes no.
    Mrs. Davis of California.
    Mrs. Davis of California. No.
    The Clerk. Mrs. Davis of California votes no.
    Mr. Butterfield.
    Mr. Butterfield. No.
    The Clerk. Mr. Butterfield votes no.
    Ms. Fudge.
    Ms. Fudge. No.
    The Clerk. Ms. Fudge votes no.
    Mr. Aguilar.
    Mr. Aguilar. No.
    The Clerk. Mr. Aguilar votes no.
    Mr. Davis of Illinois.
    Mr. Davis of Illinois. Yes.
    The Clerk. Mr. Davis of Illinois votes yes.
    Mr. Walker.
    Mr. Walker. Aye.
    The Clerk. Mr. Walker votes aye.
    Mr. Loudermilk.
    Mr. Loudermilk. Aye.
    The Clerk. Mr. Loudermilk votes yes.
    The Chairperson. The Clerk will report.
    The Clerk. Madam Chairperson, on this vote, there are six 
noes and three yeses.
    The Chairperson. The amendment is not agreed to.
    Are there additional amendments?
    If there are no----
    Mr. Walker. Yes, I have an amendment.
    The Chairperson. The gentleman from North Carolina is 
recognized for his amendment.
    Mr. Walker. Thank you.
    The Chairperson. The Clerk will report the amendment.
    The Clerk. Amendment to the Amendment in the Nature of a 
Substitute to H.R. 2722, Offered by Mr. Mark Walker of----
    [The amendment of Mr. Walker follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mrs. Davis of California. I reserve a point of order.
    The Chairperson. A point of order is reserved.
    The gentleman is recognized for five minutes.
    Mr. Walker. Thank you, Madam Chairperson.
    This amendment would add a subtitle prohibiting ballot 
harvesting.
    Ballot harvesting is the practice in which organized 
campaign workers or volunteers collect absentee ballots from 
certain voters and drop them off at a polling place or election 
office. While this process seems innocuous at first, it has 
been used to take advantage of voters and has been severely 
abused by political operatives across the country.
    Most recently, we saw a new election ordered in the North 
Carolina Ninth Congressional District because of ballot 
harvesting allegations. In California, this practice is legal, 
and we saw it affect multiple races. Valadao was up by six 
points on election day and lost 3 weeks later. Young Kim was up 
by 8,000 votes and lost by 5,000 votes. One more example was 
Jeff Denham lost because of the 57,000 vote-by-mail ballots 
cast and counted after election day.
    I know we have some Members from California that are very 
versed in this and I am not saying that this is the entire 
factor, but, obviously, it was at some point a factor in these 
races.
    We can no longer ignore the most notable threat to our 
election security. Now, we have talked about it today. In fact, 
I have written down a couple things that some of our members 
have said. This is an attack on our Federal system, as far as 
what the Russians have the Chinese have done.
    I believe, Mr. Raskin, you said this calls for 
extraordinary alarm.
    The Chinese and Russian attack our systems, protection 
systems, thousands of times per day. But you know when I first 
heard that? My first month in Congress, when I was on the 
Committee on Homeland Security, January 2015.
    My question is, why wasn't there an extraordinary alarm 
during previous elections? Why only is the extraordinary alarm 
happened during the 2016? We had the information. We had the 
data. The previous administration had the data that our 
election systems and that we were getting cyber attacked tens 
of thousands of times per day just by these two countries 
alone.
    It is an extraordinary alarm and that is why one of the 
ways that we can prevent that, any kind of potential 
wrongdoing, is to be able to prohibit ballot harvesting.
    If my friends across the aisle claim they are interested in 
securing elections--and I believe they are--we must pay 
attention to the actual evidence of election interference where 
votes were changed and even stolen. Securing the ballot means 
protecting voters from all means of ballot tampering and 
interference, including ballot harvesting.
    This amendment prohibits the practice of ballot harvesting 
while allowing for commonsense exceptions for the disabled and 
elderly and other specific inclusions. I support the passage of 
this amendment.
    I yield back.
    The Chairperson. The gentleman from North Carolina yields 
back.
    Arguably, this amendment is not germane, but I would ask 
that the gentlelady from California not insist on her point of 
order so that we can at least have this discussion----
    Mr. Walker. Very gracious.
    The Chairperson [continuing]. And a vote.
    I would ask that we vote against this amendment.
    Although it is not in this bill, some States do have laws 
that make voting accessible for homebound voters and others who 
have may have trouble getting to the polls.
    For instance, California's Elections Code Sec. 3017 
provides that a vote-by-mail voter who is unable to return the 
ballot may designate any person to return the ballot to the 
elections official who issued the ballot to the precinct board 
at a polling place or vote center within the State or to a 
vote-by-mail drop-off location within the State.
    Now, allowing an absentee voter to designate a person of 
their choosing to drop off their marked ballot allows for 
greater participation. Some voters are homebound. Some have no 
family to delegate this role to. They should not be 
disenfranchised.
    Ballot drop-off laws are, in and of themselves, perfectly 
appropriate election administration laws. That is quite 
different than altering the vote, taking a vote and failing to 
turn it in to scam an election or to engage in fraudulent 
practices.
    States like California see no credible reports of fraud 
relative to the drop-off. And I will note, since three of the 
Members of this Committee are from California and are pretty 
familiar with the elections in the last year, we had monitors, 
both the Republicans and the Democrats, in every one of those 
districts. There were no complaints filed by either party about 
this, because there were no fraudulent practices.
    Voter fraud is voter fraud. It is illegal in existing law. 
This act doesn't change that. In fact, the SAFE Act institutes 
measures like risk-limiting audits to make sure that Americans 
can have confidence that their votes are actually counted.
    Experts like the Brennan Center have repeatedly raised that 
it is more likely that an American will be struck by lightning 
than that he will impersonate another voter at the polls. So 
the straw-man arguments of voter fraud really distract from the 
real issue, that many Americans have trouble accessing the 
ballot. We don't want to prevent American citizens from being 
able to cast their ballots. This amendment, arguably not 
germane but still, I think, ill-advised, should be defeated.
    I would ask if other Members would----
    Mr. Davis of Illinois. Madam Chairperson, I move to strike 
the last word.
    The Chairperson. The Ranking Member is recognized for five 
minutes.
    Mr. Davis of Illinois. Well, I guess lightning struck in 
North Carolina's Ninth Congressional District. You had somebody 
use a process that was illegal in North Carolina. They 
committed acts of voter fraud. A special election that is being 
held right now.
    The same process of collecting those ballots that was ripe 
for that lightning strike that happened--I am sure the only 
place in the United States of America where a political 
operative took advantage of a process that is illegal in that 
State but is the exact same process that is legal in another 
State, that is the only place that lightning struck, according 
to the Brennan Center, right?
    Mr. Butterfield. Would the gentleman yield?
    Mr. Davis of Illinois. Come on.
    Mr. Butterfield. Would the gentleman yield?
    Mr. Davis of Illinois. Yes.
    Mr. Butterfield. I am sympathetic to your amendment. I have 
been listening to this debate very, very closely----
    Mr. Davis of Illinois. Thank you.
    Mr. Butterfield [continuing]. Because I know exactly what 
happened in the North Carolina 9th District, and it was illegal 
and disgusting.
    Mr. Davis of Illinois. It was, and it is.
    Mr. Butterfield. I am going to ask the gentleman if you 
would consider a friendly amendment to your amendment that 
would allow the voter to designate a person of their choosing 
to deliver the ballot. If you would do that, I will vote for 
this amendment. That is the California standard, that they can 
designate a person of their choosing.
    Mr. Davis of Illinois. You know, let me talk to my team 
about that.
    Mr. Butterfield. Let's work on it.
    Mr. Davis of Illinois. Let's do work on that, because----
    Mr. Butterfield. Let's work on it.
    Mr. Davis of Illinois [continuing]. You're--Mr. 
Butterfield, I respect you and I respect your opinion on this 
issue, and I want to make sure that we offer something.
    What I would like to do is ask you to vote for this 
amendment here, and then we can work on any friendly additions 
at the----
    Mr. Butterfield. That is putting the cart before the horse. 
But if you would give me your word that you would consent to 
adding that provision----
    Mr. Davis of Illinois. Well----
    Mr. Butterfield [continuing]. That the voter can designate 
a person of their choosing, I will today vote for----
    The Chairperson. Would the gentleman yield?
    Mr. Butterfield. I will yield.
    The Chairperson. Because we will hopefully have a vote on 
this before votes are called on the House Floor potentially in 
the next 10 minutes. Otherwise, we will come back after votes. 
But----
    Mr. Davis of Illinois. All right. I will reclaim my time.
    We will talk. Seriously. We know this amendment is going 
fail here. It is going to go on a six-to-three vote. But let's 
talk. Because we must do something to stop the process.
    The idiot in North Carolina's 9th District that committed 
fraud and likely will go to jail is not the only political 
operative to take advantage of processes like ballot 
harvesting. We know it. Sometimes the lightning strike didn't 
happen because many didn't get caught. We need to fix this.
    I look forward to working with you, Mr. Butterfield.
    I will yield as much time as he may consume to Mr. Walker.
    The Chairperson. Mr. Walker.
    Mr. Walker. I would like to thank the gentleman from North 
Carolina and respect the time and service Mr. Butterfield has 
on behalf of his constituents. We would be willing to do 
something along those lines.
    As being both from North Carolina, we saw the reproach that 
took place that was very disgusting, as far as broke down the 
confidence that people had in whether their votes were being 
counted and also how the whole process went down.
    We will certainly be flexible on this, if this is something 
that we can work together on.
    The Chairperson. The gentleman yields back.
    Certainly, all of us condemn the crimes that were committed 
in North Carolina. They didn't relate to voter--the California 
experience because there has been no fraud there.
    I would ask that we oppose this amendment--oh, the 
gentlelady from California is recognized.
    Mrs. Davis of California. Well, if the Chairperson would 
yield for a second, I will strike the last word.
    I can just tell from the body language of my colleagues 
that you don't believe that. But, as the Chairperson said, 
there were a group of attorneys there, I can assure you, from 
both sides, the best in the country, that were observing this 
process. If you have evidence, though, that there was fraud in 
that process, we would--you know, I am sure that folks would--
--
    The Chairperson. Nobody is for fraud.
    Mrs. Davis of California [continuing]. Know that in 
California. But the reality is that it is highly, highly 
monitored. And I don't believe even the colleagues that lost 
those elections came back to ask for an appeal.
    Mr. Davis of Illinois. Will the gentlelady yield?
    Mrs. Davis of California. Yes.
    Mr. Davis of Illinois. Look, I give the Majority a lot of 
credit. You had a lot more lawyers on the ground and a lot 
better folks on the ground after the election and while ballots 
were somehow being collected from those that--obviously, 
California has a much higher homebound population that needs 
somebody to collect a ballot than other States, because the 
substantial amount of ballots coming in after the election is 
what frustrates the American people too. The American people 
want elections to be decided not weeks later.
    But, to begin with, those lawyers were not on the ground 
before they----
    Mrs. Davis of California. Taking back my time----
    The Chairperson. Yes, they were.
    Mrs. Davis of California [continuing]. Mr. Davis. I mean, 
the reality is that the law states that as long as the postmark 
is by the day of the election that the ballot can be counted--
is counted. And so, you know, that is clearly the law. And I 
assure you that----
    Mr. Davis of Illinois. Partisanship is the biggest threat 
to our fair elections.
    The Chairperson. If the gentlelady will yield.
    Mr. Davis of Illinois. Voter fraud in this process.
    The Chairperson. If the gentlelady will yield.
    Mrs. Davis of California. Yes.
    The Chairperson. The great majority of the late votes, they 
weren't late votes. They were votes postmarked by election day 
delivered by the post office. Under California law, those votes 
are counted. And there were huge numbers on both sides. But----
    Mrs. Davis of California. Right. And if the Chairperson--
also military ballots.
    The Chairperson. Also military ballots.
    The gentlelady has additional time. Votes have been called 
on the Floor. The question is, do additional Members wish to be 
heard on this amendment? If not, we will have to come back 
after the votes to continue this.
    Mr. Raskin. Can we just vote?
    The Chairperson. Do you want to just vote?
    Mr. Raskin. Yes. We can just vote.
    The Chairperson. All right.
    Those who favor this amendment will say aye.
    Those who oppose will say no.
    In the opinion of the Chair, the noes have it.
    Mr. Davis of Illinois. I would ask for a roll call vote.
    The Chairperson. I think we have noes, but Mr. Davis has 
asked for a roll call.
    Mr. Davis of Illinois. You know what? I am going to 
withdraw my request for a roll call vote.
    The Chairperson. In the opinion of the Chair, the noes have 
it.
    Let's have a roll call. We have had roll calls so far.
    The Clerk will call the roll.
    The Clerk. Chairperson Lofgren.
    The Chairperson. No.
    The Clerk. Chairperson Lofgren votes no.
    Mr. Raskin.
    Mr. Raskin. No.
    The Clerk. Mr. Raskin votes no.
    Mrs. Davis of California.
    Mrs. Davis of California. No.
    The Clerk. Mrs. Davis of California votes no.
    Mr. Butterfield.
    Mr. Butterfield. No.
    The Clerk. Mr. Butterfield votes no.
    Ms. Fudge.
    Ms. Fudge. No.
    The Clerk. Ms. Fudge votes no.
    Mr. Aguilar.
    Mr. Aguilar. No.
    The Clerk. Mr. Aguilar votes no.
    Mr. Davis of Illinois.
    Mr. Davis of Illinois. Yes.
    The Clerk. Mr. Davis of Illinois votes yes.
    Mr. Walker.
    Mr. Walker. Aye.
    The Clerk. Mr. Walker votes yes.
    Mr. Loudermilk.
    Mr. Loudermilk. Aye.
    The Clerk. Mr. Loudermilk votes yes.
    The Chairperson. The Clerk will report.
    The Clerk. Madam Chairperson, on this vote, there are six 
noes and three yeses.
    The Chairperson. The amendment is not agreed to.
    Are there additional amendments to be considered?
    If not, then the amendment will be dispensed with.
    The question is on agreeing to H.R. 2722, as amended.
    All those in favor will say aye.
    All those opposed will say no.
    In the opinion of the Chair, the ayes have it.
    Mr. Davis has requested a roll call vote.
    The clerk will call the roll.
    Mr. Davis of Illinois. Voter verification.
    The Clerk. Chairperson Lofgren.
    The Chairperson. Aye.
    The Clerk. Chairperson Lofgren votes yes.
    Mr. Raskin.
    Mr. Raskin. Aye.
    The Clerk. Mr. Raskin votes yes.
    Mrs. Davis of California.
    Mrs. Davis of California. Aye.
    The Clerk. Mrs. Davis of California votes yes.
    Mr. Butterfield.
    Mr. Butterfield. Aye.
    The Clerk. Mr. Butterfield votes yes.
    Ms. Fudge.
    Ms. Fudge. Aye.
    The Clerk. Ms. Fudge votes yes.
    Mr. Aguilar.
    Mr. Aguilar. Aye.
    The Clerk. Mr. Aguilar votes yes.
    Mr. Davis of Illinois.
    Mr. Davis of Illinois. No.
    The Clerk. Mr. Davis votes no.
    Mr. Walker.
    Mr. Walker. Nay.
    The Clerk. Mr. Walker votes no.
    Mr. Loudermilk.
    Mr. Loudermilk. No.
    The Clerk. Mr. Loudermilk votes no.
    The Chairperson. The clerk will report.
    The Clerk. Madam Chairperson, on this vote, six Members 
vote yes, three Members vote no.
    Mr. Loudermilk. Madam Chairperson. Well, go ahead.
    The Chairperson. The bill passes.
    The gentleman from Georgia.
    Mr. Loudermilk. Just a closing comment is, I do question 
some electronic scoring over the last couple years at the 
Congressional Baseball Game. I have been very concerned over 
what the electronic scoreboard has shown. I just want to say, 
next Wednesday night, I reserve the right for a paper backup of 
whatever the score is.
    The Chairperson. All right. A paper backup on the baseball 
game is required or requested.
    I will note that if any Member gives a notice of intention 
to file supplemental minority, additional, or dissenting views, 
we will have 2 days pursuant to clause 21, rule XI, the 
Committee Rule 10(d). I ask that Committee Members have an 
additional two days to file with the clerk of the Committee 
supplemental materials.
    I move that H.R. 2722, as amended, be reported favorably to 
the House.
    All those in favor will say aye.
    Opposed, no.
    In the opinion of the Chair, the ayes have it.
    Do we want a recorded vote again on the same.
    Mr. Davis of Illinois. No.
    The Chairperson. Then the ayes have it. The bill is ordered 
reported favorably to the House.
    There are two days, as noted, for additional or minority 
views to be submitted to the Committee report.
    Without objection, the staff is authorized to make any 
technical and conforming changes.
    I want to thank the Members for participating in today's 
markup.
    There being no further business, without objection the 
Committee stands adjourned, and we will go to the Floor for 
votes.
    [Whereupon, at 10:30 a.m., the Committee was adjourned.]

                                  [all]
</pre></body></html>
